No. 19-1143

 

 

IN THE

Supreme Court of the United States

FMC CorRPORATION,

Petitioner,
v.

SHOSHONE-BANNOCK TRIBES,
Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICUS CURIAE RETAIL LITIGATION
CENTER, INC.
IN SUPPORT OF PETITIONER

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
2,529 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on April 17, 2020.

 

Colin CasewHogan
Wilson-Epes Printing Co., Inc.
